No.

SupremTc^^tlls'
FILED

9M as

JUL - 8 2821
2SCEOFTWECLERK

In the
Supreme Court of the United States

CONSTANTINO BASILE,
Petitioner
v.

THE LOS ANGELES FILM SCHOOL,
LLC. ET. AL.,
Respondent
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
PETITION FOR
WRIT OF CERTIORARI

CONSTANTINO BASILE
4104 BALTIC ST
OXNARD CA. 93035
(424)645-4175
constantino.basile@gmail.com

JUL 30 2021

aaa*eaa&

QUESTION
Whether a Petitioner is entitled to a conservative
summary judgement of 1 Billion dollars awarded
after instructions on remand or another amount
ordered by the Supreme Court pursuant to 28 U.S.C.
§ 2106, after 8 years of properly and accurately
reporting to the District Court and Ninth Circuit
the circumstances with appropriate application of
law and code, providing analysis of issues warranting
several awards for damages to total 7.1 Billion; first
separately the 4 copyright claims with torts
dismissed by executive order leading to an allencompassing “mega complaint “ at 4 Billion in
damages and now nearing triplicate to include
damages for: Nevada District Court’s dismissal
violating racketeering laws as defined in 18 U.S.C.
§1961 - (§1503(a), §1510, §1511, §1512, §1513,
§2339A, §1992, §1962(c); and the Ninth Circuit’s
affirmation of this and another order creating
conclusive “pattern of dismissal”, a proven
collaboration with these and other DefendantRespondents to further Criminal Copyright
Infringement conspiracy through organization;
and whether or not the Ninth Circuit panel(s) and
the several judges of the lower courts with agencies
who plotted to assassinate Petitioner and several
members of his immediate family before resolution of
the claims, should be charged criminally in violation
of “RICO”.

ii

TABLE OF CONTENTS
QUESTION PRESENTED..

l

TABLE OF AUTHORITIES

1V-V1

PETITION FOR WRIT CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

2

RELEVANT CONSTITUTIONAL PROVISIONS.....2
STATEMENT OF THE CASE

2

Hearing and Explosion

6

REASONS FOR GRANTING THE WRIT

9

New evidence of Conspiracy to the
Ninth Circuit and District Court’s
Collaboration for Corrupt Dismissal and
Affirmation in Addition to Refusal to
Provide Appropriate Remedy.................

11

Timeline of Briefing and Events

16

CONCLUSION

27

APPENDIX TO PETITION FOR
WRIT OF CERTIORARI
APPENDIX A - Order from the Central District
Court on Petitioner’s Motion Pursuant to 28
U.S.C. 455(a) to Recuse Judicial Officers and
for Appropriate Relief Pursuant to F.R.C.P.
60(d)....................................................................

30

m

APPENDIX B - Order from the Central
District Court on the related “RICO
Complaint”..........................................

32

APPENDIX C • Order Deeming Petitioner a
Vexatious Litigant.....................................

36

iv

TABLE OF AUTHORITIES
Cases
Adkisson v. Jacobs Eng’g Grp., Inc.,
790 F.3d 641, 649 (6th Cir. 2015.....

24

Basile v. The Los Angeles Film School,
LLC et al............................................

4

Basile v. Warner Bros. Entertainment.

5

Dainese v. Cooke,
91 U.S. 580, 584 (1875)

5

Ellison v. Ford Motor Co.,
847 F.2d 297, 300-01 (6th Cir. 1988)

21

Giraldes v. Roche,
357 F. App’x 885, 886
(9th Cir. 2009) (mem.)...

24

Jerri v. Harran,
625 F. App’x 574, 578-79 (3d Cir. 2015)

21

Levin v. Miss. River Fuel Corp.,
386 U.S. 162, 170 (1967).......

11

Payne v. Britten,
749 F.3d 697, 700 (8th Cir. 2014)

10

Sibbach v. Wilson & Co.,
312 U.S. 1, 9-10 (1941)

21

Wayman v. Southard,
23 U.S. (10 Wheat.) 1, 21-22, 43 (1825)

21

V

Watts & Co. v. Unione Austriaca
Di Navigazione,
248 U.S. 9, 21 (1918)196 Watts...

10

Federal Statutes

18 U.S.C. § 1503(a)............................

1,3

18 U.S.C. §1510................................

1,3

18 U.S.C. §1511................................

1,3

18 U.S.C. §1512................................

1,3

18 U.S.C. §1513................................

1,3

The Racketeer Influenced and Corrupt
Organizations Act..................................

2

18 U.S.C. §1961....

1,3,10,26

18 U.S.C. § 1862(c).

3

42 U.S.C. §1983....

.... 1,3,10,23

18 U.S.C. §1985(2)

.1,3,10,23,26

18 U.S.C. §1986....

1,3,10,23,26

18 U.S.C. §2319....

1,23

18 U.S.C. §2332b...

1,3

18 U.S.C. §2339A..

............ 1,3,25

28 U.S.C. §455(a)..

1,2,9,18,19,21

28 U.S.C. §2106....

.......... 2,21,22

vi

The United States of America Constitution
The Fifth Amendment.

2,22

The Fourteenth Amendment

2,22

U.S. CONST, art. I, § 8, els. 9,18

21

U.S. CONST art. Ill, § 1, cl. 1....

21

U.S. CONST art. Ill, § 2, cl. 2....

21

Federal Rules of Civil Procedure
F.R.C.P. 60(d)

1,2,9,18,19,21

Supreme Court Rules
Supreme Court Rule 11

1,15

Other Authorities
Section 25 of the Judicial Act 1789
Judiciary Act of 1789, ch. 20, § 24, 1 Stat. 73, 85:
pp/ 23 24................................................................... 23
Judiciary Act of 1789, ch. 20 § 25, 1 Stat. at 86
(emphasis added).................................................

23

Respondents'
(1) The Los Angeles Film School, LLC
dba The Los Angeles Film School (listed on cover)
(2) Twentieth Century Fox Film Corporation
(3) Scott Free, LLC.
(4) Sony Pictures Entertainment, Inc.
(5) Sony Pictures Television, Inc.
(6) Kripke Enterprises
(7) Amblin Entertainment, Inc.
(8) NBCUniversal Media, LLC (NBCUniversal)
(9) Warner Bros. Entertainment, Inc.
(3.0) Legend Pictures, LLC. (Legendary Pictures),
(11) Lilly Wachowski (Andrew Wachowski),
(12) Lana Wachowski
(13) Ehm Productions , Inc. (TMZ)
(14) Jonathon Nolan
(15) Christopher Nolan
(16) Onza Partners SL, Onza Entertainment
(17) RIO Properties, LLC (“RIO - All Suites Hotel
Casino - Caesars Entertainment Corporation)
(18) Thorndal, Armstrong, Delk, Balkenbush &
Eisinger

(19) Southwest Airlines, Co.
(20) Robert A. Leark, P.H.D.
(21) Las Vegas Metropolitan Police Department
(22) Superior Court of California, County of Los
Angeles
(23) U.S. District Court — Central District of
California of Western Division
(24) The Ninth Court of Appeals
(25) The Federal Bureau of Investigation
(26) JAMS, Inc.
(27) Mitchell, Silberberg & Knupp LLP
(28) Ford Harrison, LLP
(29) City of Oxnard (Oxnard Police Department)
(30) City of Beverly Hills (Beverly Hills Police
Department)
(31) Michelle Obama
(32) Blake Lively
(33) Nancy Pelosi (California’s 12th Congressional
District)
(34) Gold Coast Cab Company
(35) Alston & Bird, LLP.

Cases'

Basile v. Los Angeles Film School, LLC.
Case No. 2:i4-cv-00412
United States District Court - Central District of
California - Western Division
Basile v. Los Angeles Film School, LLC.
Appeal No. 15-56309
The Ninth Circuit Court of Appeals
Basile v. Twentieth Century Fox Corporation
Case No. 2‘-14-cv-04263
United States District Court - Central District of
California - Western Division
Basile v. Twentieth Century Fox Corporation
Appeal No. 14-56423
Basile v. Sony Pictures Entertainment
Case No. 2:i4-cv-04264
United States District Court - Central District of
California * Western Division
Basile v. Sony Pictures Entertainment
Appeal No. 14-56418
Basile v. Warner Bros. Entertainment
Case No. 2:l5-cv-05243
United States District Court - Central District of
California - Western Division
Basile v. Warner Bros. Entertainment
Appeal No. 16-55067

Basile v. Southwest Airlines Co.
Case No. 2:i5-cv-01883
United States District Court - Central District of
California - Western Division
Basile v. Southwest Airlines Co.
Appeal No. 18-16332
Basile v The Los Angeles Film School, LLC. et al.
Case No. 2:l8-cv-08604
United States District Court - Central District of
California - Western Division
Basile v The Los Angeles Film School, LLC. et al.
Appeal No.-19-56293
Appeal No. 20-56276 (decision pending)

1

PETITION FOR A WRIT OF CENTIORARI
Petitioner Constantino Basile respectfully
petitions for a writ of certiorari under Supreme
Court Rule 11, or in the alternative if The Ninth
Circuit Court’s order is released during transmitting
of the petition for review, from the judgment entered
by The Ninth Circuit Court of Appeals.
OPINIONS BELOW
The order of the Central District Court
dismissing, and The Ninth Circuit Court not
releasing order to! or affirming, the dismissal of a
28 U.S.C. 455(a), and F.R.C.P. 60(d) motion, filed to
remove an obstructive vexatious litigant order
functioning only to “provide material support” to
Defendant - Respondents, preventing proper and
continued litigation of Petitioner’s claims filed then
obstructed for Criminal Infringement of a Copyright
- 18 U.S.C. §2319 under 18 U.S.C. §1961 of the RICO
Act;l8 U.S.C. § 1503(a), §1510, §1511, §1512, §1513;
§2332b; 2339A; and Civil Rights Violations under
42 U.S.C. §1983, §1985(2), and §1986 all conflicting
with interest of justice, dismissed then affirmed in
The Ninth Circuit Court of Appeals in pattern.

2

JURISDICTION
As noted, The Ninth Circuit Court is either still at
a standstill and this petition reaches this Court
under Supreme Court Rule 11, or The Ninth Circuit
Court has affirmed Judge Carney’s affirmation of
Magistrate Judge Spaeth’s inapplicable banter of res
judicata doctrine obstructing an 8 year RICO claim,
her noting the Complaint to be only a “fantastical”
assembly of facts.
This decision warranted an appeal that The Ninth
Circuit did not process and abused the Petitioner and
its discretion in abusive dialogue affirming contrary
the to the 5th and 14Th Amendments of The United
States Constitution, failing to apply U.S. Code.
This petition is tailored for a review of all facts and
circumstances but specifically under rule for
oversight of the dismissal of the Petitioner’s, Motion
to Recuse Judge Carney and Magistrate Judge
Spaeth pursuant to 28 U.S.C. §455(a) and F.R.C.P.
60(d), to remove the vexatious litigant label to
continue to ADR activating the operative RICO
complaint, with an amended filing of additional
RICO violations and new Defendants, as described
and explained here.
The United States Supreme Court has jurisdiction
pursuant to 28 U.S.C.§2106.

3

RELEVANT CONSTITUTIONAL PROVISION
The Fifth and Fourteenth Amendment to the
United States Constitution provides in part, “No
state shall ...deprive any person of life, liberty, or
property, without due process of law.”
STATEMENT OF THE CASE
The Racketeer Influenced and Corrupt
Organizations Act protects all U.S. citizens pursuing
remedy for civil claims with available resources
applicable to punishing criminal activities outlined
in 18 U.S.C. §1961, in addition to acts indictable
under 18 U.S.C. §1962(c), to safely pursue life,
liberty, and property and reclaim one’s property if
stolen as part of conspiracy; a civil claim in this
particular complex situation necessary to be pled
here in the context of a 42 U.S.C. §1983 and
§1985(2), as all Defendant-Respondents have
conspired to remove Petitioner of his property and
prevent him from resolving these theft issues, with
their 8 years ofobstruction, violence and trickery.
Defendants engaged in many acts violating
18 U.S.C. §1961 §1503a, §1510, §1512, §1513,
§2339A, §2332b, §1992, §1958 and 42 U.S.C. §1983
and §1985(2), §1986, with end result exceeding
1 Billion dollars in proven damages.
This case involves intellectual property theft and
conspiracy, the theft furthered with violent attacks
{See Central District Court - Case No. 2:l8-cv-08604
- Dkt. No. 1 and Dkt No. 210, Exh.3) on the
Petitioner and his immediate family during

4

preparation and litigation of the 4 individual
copyright Complaints dismissed in clear error in the
District Court - the decisions then affirmed all in the
same day after all the 4 accumulated into the Ninth
Circuit, at different stages when affirmed without
notation as to reasons.
These issues now connected through continuous
conspiracy filed properly as a Complaint (hereinafter
referred to as “the RICO complaint”) and heard only
in opposition hearings then abruptly recommended
for dismissal on grounds of res judicata when there is
nothing repetitive or imperfect or relabeled, while
obstructively deeming Petitioner a vexatious litigant.
This sabotage obstruction laughable after delay twice
by two District Court employees - one assistant to
Judge Dolly M Gee, Kane Tien, the other a District
Court cashier named Andres Pedro - stealing
documents and exhibits during litigation rendering
the District Court Defendants.
6-10-15 - Basile v. The Los Angeles Film School, LLC
(See The RICO complaint” - Central District Court Case No. 2:i8-cv-08604 - Dkt. No. l) - Kane Tien
removed after its filing an extremely critical 2049
page document (Decl. in Support of Plaintiff’s
Motion to Vacate Arbitration Award) with reports of
the parties threatening before attacks and legal
failures by the JAMS Arbitrator to facilitate
resolution of the many properly presented claims.
The 2049 page document wasn’t found until
Petitioner called then showed up to the District
Court clerk and Kane Tien looked for it and found it,
then scanning it into the docket on 6-30-15, after
response by Defendant-Respondents.

5

A few days before its refile 7-20-15, Petitioner left
for downtown and a few hours later DefendantRespondent Oxnard Police staged a break in at
Petitioner’s parent’s home making reference to Kane
Tien in a way only Petitioner would understand.
After searching Petitioner’s room questionably on a
break in, the one Officer telling Petitioner’s mother
that “he has teenagers” and to “tell your son to keep
his room cleaner” (inferring mouth shut), with
enough oddity for it to have been mentioned to
Petitioner when he returned; the beginning of the
racketeering by Oxnard Police Department. The
content of the missing 2049 page document that was
being refiled, clearly the Oxnard Police Department’s
concern and target.
7-13-15 - Basile v Warner Bros. - Andres Pedro stole
a package of 28 non-paper e.s.i. exhibits to a
copyright claim after its manual filing, essential to
briefing, changing the course of the entire litigation
process of several copyright claims a matter of law,
causing wasted court and Petitioner’s time
prolonging the dangerous pursuit of resolution to the
claims resulting in many of the DefendantRespondents threatening and carrying out violent
attacks on every member of Petitioner’s family;
violations by trickery and spoliation,
“MIB3” After its filing, The Ninth Circuit Court
removed the critical MIB3 dvd when transmitted,
seemingly to rely on Defendant-Respondent’s edited
version as reason for declaring the Petitioner’s work
not to be infringing. (See Central District Court Case No. 2-18-cv-08604 - Dkt.No.l If94)

6

“Prometheus” Twentieth Century Fox and Scott Free
Films, during processing of the copyright claim, were
caught in clear conspiracy the U.S. copyright office(See Central District Court ■ Case No. 2-18-cv-08604Dkt. No.l H151)
Dainese v. Cooke, 91 U.S. 580, 584 (1875)
(remanding where “the summary and irregular
manner in which the case was tried below leaves this
court in great doubt as to what was tried, and on
what evidence the cases were heard”)
After briefing this U.S. Supreme Court with no
definitive response officially on three of the four
copyright appeals “dismissed in pattern” and
affirmed 2*27-17, all claims were adjusted into one
claim after realization of all elements of true
conspiracy being present, seasoned heavily with
violations of RICO and Civil Rights, “the RICO
complaint” was filed 10-5*18. Hearings took place
1*9*19 and 1*16*19 on Defendant’s Motion to Dismiss
before Magistrate Judge Autumn D. Spaeth. (See
Ninth Circuit Court * Appeal No. 19*56293 * Dkt. No.
11, Exh. 4 and Dkt. Nos. 9 and 13 * Transcripts of
hearings) The Report and Recommendation
issued by the Magistrate strangely in the same
pace and mood as the suggestion by counsel for
Defendant-Respondent Mitchell Silberberg and
Knupp (Counsel for Defendant Sony Pictures
and Steven Speilberg) to deem Petitioner a
vexatious litigant.
Hearing and Explosion
After hearing 1*9*19, there was an explosion on
1*12*19 in a Paris bakery the news headline reading:

7

“ Three killed as explosion tears though
bakery; dozens injured.”
Because the attacks in Paris took place in
November 2015 while Steven Spielberg was
screening Bridge of Spies, it’s a very suspicious
reference to Rick Baker’s and Barry Sonnenfeld’s
dialogue in an article appended to the Basile v. Sony
Complaint at issue three days earlier - (See Central
District Court - 2‘18-cv-08604 - Dkt. No. 4 Complaint, Exhibits - Volume III.- Exh. 2, p.175 and
p.238 and Exh. 16.)
The article discusses that: “ Shooting ‘Men in
Black 3’ Without a Third Act Ready Might Have
Been a Really Stupid Idea”
The referenced ‘stupid idea’ was due to the MIB3
production having begun filming - with Petitioner’s
time travel elements added - without a third act. No
coincidence that the day of the release of the trailer
for MIB3 (12*12-11), with included time travel
elements from Petitioner’s copyright works, there
was a gunman Tyler Brehm shooting people
“randomly” in front of Los Angeles Film School on
the very route Petitioner takes to school but didn’t
walk that morning.
Another attack related to the hearing and this
awaited decision; an attempt on Petitioner s life.
Magistrate Spaeth’s Report and Recommendation
was affirmed 10-17-19 by Judge Carney too quickly
for it to have even been possible that Judge Carney

8

conducted any review let alone a proper
determination of evidence or the complaint.
The same day as the affirmation, Petitioner was
beaten nearly to death and robbed of the original
flash drives with exhibits and creation documents
thus far, and his personal belongings unsafe to leave
in his office due to occasional ghosts in and out. The
incident occurred at “The Tavern” a house restaurant
/bar in Ventura Ca. After behaviors unprecedented,
it seems to have been plotted by Oxnard Police who
had an Oxnard car waiting around the corner from a
restaurant in Ventura, responding after Petitioner
managed to survive a vicious, “controlled by security”
attack and robbery out of nowhere, being kicked in
the head at least 10 times on the grass entrance after
walking outside for a moment, having escaped by
running to a local hotel lobby “Crown Hotel”
where Petitioner and desk agent called police.
The incident was brutal with 20 people standing
around in front in a circle on a grass entrance and
watched, to prevent the street tourists from seeing.
The Oxnard police retrieved the camera footage from
the restaurant the very next morning.
Petitioner suffered brain damage more visible on
an MRI that further effected his speech causing not
slight slurring from air conditions reported several
times and in appeal, but extreme slurring and
delayed speech requiring a neurologist. After the
Christmas gas toxin causing Petitioner much worse
of the same injury, Petitioner required to be
prescribed medications for brain trauma and several
months of speech therapy ongoing for paralysis of the
face and epiglottis.

9

(See Central District Court - Case No. 2:l8-cv-08604
■ Dkt. No. 210, Exh. 3; and Ninth Circuit Court Appeal No. 19-56293 - Dkt. No. 4, pp. 15-16)
REASONS FOR GRANTING THE WRIT
An immediate appeal in The Ninth Circuit was
met with an abusive affirmation order inflicting
intentional anxiety and more trauma to Petitioner’s
already traumatized family after more attacks this
time on Petitioner’s parents in their gated
community at the marina in Oxnard.
On 7-23-20 an additional Complaint with several
additions to “the RICO complaint” was filed and
blocked by Judge Carney! Defendants new parties
and existing Defendant Oxnard Police for obstruction
and intimidation occurring during processing of the
appeal for “the RICO complaint” by The Ninth
Circuit.
8-10-20, Petitioner -s parents were verbally
assaulted by awaiting neighbors, at 83 years old
threatened into self-abusing Petitioner’s mother
breaking her leg. This attack was on camera and
followed by possible coercion into false statement
signing at the hospital. These neighbors began to
conspire in retaliation with Defendant-Respondent
Oxnard Police and were reported. This attack on
Petitioner’s parents occurred a few hours after
Petitioner was robbed at knifepoint to his neck in
Woodland Hills, Ca. 37 miles away.
9-10-20 the affirmation of the District Court’s
dismissal by The Ninth Circuit was released

10

(See Case No. 2:l8-cv08604 - Central District Court
• Docket #210) - 8 years of litigation abruptly halted
at the trial point or summary adjudication
submission • involving proven CIVIL RIGHTS claims
and RICO claims including theft, kidnapping and
attempted murder of every one of Petitioner’s family
member living and working in Los Angeles * the
damages could and should be consequentially revised
to treble.
The Motion to Recuse Magistrate Judge Spaeth
and Judge Carney Pursuant to F.R.C.P. 455(a) and
Motion for Appropriate Relief Pursuant to F.R.C.P.
60 (d), that this current Petition addresses, requires
removal of an obstructive vexatious litigant label
inappropriately applied to Petitioner with now 8
years of perfect litigation history, its function only to
hinder, obstruct, delay, and prevent a 4 Billion dollar
claim from resolution that cannot be solved outside of
the bounds of the court system.
Petitioner’s Opening Brief to Judge Carney’s
order denying relief, currently in the Ninth Circuit
Court of Appeals (Ninth Circuit Court * Appeal No.
20-56276 - Dkt. No. T, see also Dkt. No. 14) was met
first with a response by the court saying that based
on the court’s docket they “don’t know’ whether the
case should proceed forward.
Recently, 6-7-20, Counsel for Southwest Airlines’
counsel Craig Delk of Thorndal, Delk, Armstrong,
Balkenbush, & Eisinger, nudged the Ninth Circuit
for a response it having passed the 4 month mark.
See Payne v. Britten, 749 F.3d 697, 700 (8th Cir.
2014) (treating the district court’s failure to rule on
the defendants’ qualified-immunity defense as

11

equivalent to a denial of the defense, asserting
interlocutory appellate jurisdiction over the denial,
and remanding for a ruling)
Here, we could treat The Central District Court’s
and The Ninth Circuit Court of Appeal’s failure to
order remedy, and Ninth Circuit’s failure to rule at
all at the stand still of "whether the case should
move forward only looking at the docket,” the exact
same way.
Petitioner asserts that proper jurisdiction is that
of The Supreme Court to order an award for damages
as well as remand. As the Court explained in one
case involving an intervening development, “[t]his
court, in the exercise of its appellate jurisdiction, has
power not only to correct error in the judgment
entered below, but to make such disposition of the
case as justice may at this time require.” 196 Watts,
Watts & Co. v. Unione Austriaca DiNavigazione, 248
U.S. 9, 21 (1918).
To more urgently note: See Levin v. Miss. River
Fuel Corp., 386 U.S. 162, 170 (1967) (observing that
“this point is so clear that we see no occasion for
remanding the issue to the Court of Appeals for its
consideration of the point” and that “[ejffective
judicial administration requires that we dispose of
the matter here”).
New evidence of Conspiracy to the Ninth Circuit and
District Court’s Collaboration for Corrupt Dismissal
and Affirmation in Addition to Refusal to Provide
Appropriate Remedy
On New Year’s Day (1-1-20) - Nancy Pelosi's
house was attacked referencing the Table of

I
■3

12

Contents to the just filed Motion to Disqualify Central District Court - Case No. 2-18-cv-08604 Dkt. No. 223, p.4): an enormous evidence of extortion
for participation in terror, or evidence of extortion for
having dismissed the claims and now being
presented with a Motion for Appropriate Relief.
(Nancy’s Garage - Black Spray Paint)
$2K CANCEL RENT
UBI
A WE WANT
EVERYTHING !
x_(pig’s head)
(bloodin large Z “pattern”)
(Petitioner’s Motion - D.C. - Dkt, No. 223, p.4)
III. ARGUMENT

8

A. JUDGE CAFRNEYS ORDER ON THE
REQUEST TO REMOVE THE VEXATIOUS
LITIGANT OBSTRCUTION IS
UNREASONABLE IN THESE
CIRCUMSTANCES, FOCUSED ON THE
IRRELEANT CONCEPT OF
14
TIME...........
IV. CONCLUSION
17-18
Because Petitioner had just been attacked with
toxin that was without question a kill gas at
Christmas 2020, while the occupants of the house
where Petitioner lives hid upstairs sending only one

13

text message down the entire day and night, about
an ambulance Petitioner had tweeted about a few
seconds before for his safety feeling a kidnapping, or
murder * indicating someone was instructing
Petitioner’s family upstairs to quickly try to prevent
it being perceived as a planned kidnapping or plot
they were forced to participate in * there are only
two situations that would make sense based on
previous activities of “unknown police” - who
Petitioner’s family finally admitted in July 2020 to
have visited Petitioner’s father at his business with
instructions and material to install in the air system,
causing Petitioner injury to his brain!
both possibilities here include this attack having
been a war cry of sorts that Petitioner was still alive,
and:
(1) The Motion for Appropriate Relief just filed
worried someone who had agreed to participate and
render decision that was contrary to evidence and
code! requiring more money for their trouble! or
(2) A shakedown by parties involved in the
racketeering and attacks against Petitioner and his
family for a portion of the money possibly set aside
from the 900B ordered by Nancy Pelosi - the way a
"not so sophisticated organization" would think.
Petitioner was forced to run out of the house and
walk through the neighborhood several times on
Christmas day 6 days before, and return several
times only the last time to find the toxic gas stronger
and experiencing “white out vision” with one or two
breaths. Immediately thought to be a planned
assassination or kidnapping since Petitioner having
seen the ambulance hiding around the corner when
he walked back home. This attack caused serious

14

repercussions from when Petitioner was beaten
nearly to death the year beforelO-17-19 - damage
that lasted for 6 months through therapy for speech
and motor function.
This suggests strongly that the someone who
texted Petitioner during saying “the ambulance was
for the neighbors” was notified by someone
monitoring tweets that Petitioner frequently uses in
situations for safety. The someone who texted
Petitioner at the very second the ambulance drove
away while being photographed mistakenly
mentioned the awaiting ambulance before Petitioner
spoke to them about it while struggling in the
downstairs of the house! the veritable bottle cap after
the house party. Petitioner’s been many times
attacked with gas and knows it was an
assassination, the second since 10-17-19.
The District Court simply cannot dismiss any of
this litigation. Abruptly, the Magistrate with
qualification of an intellectual property attorney
prior to becoming a Magistrate Judge changed her
course of thought after hearing and recommended a
dismissal based on a doctrine of res judicata in a
repeat of what Mitchell, Silberberg, Knupp *
Attorney for Sony Pictures Entertainment and
Amblin) suspiciously suggested in hearing, applying
this vague and not complicated doctrine to an
ongoing RICO with a vexatious order, enforced with
the violent beating and attempted murder and
robbery of Petitioner 10-17*19, the day of the release
of the affirmation by Judge Carney, and the vicious
nature of the behavior engaged in by all Defendants,
Petitioner respectfully asks that this Petition for
Writ of Certiorari be received for consideration on

15

“the RICO complaint” and all of its moving parts:
42U.S.C.§1983; §1985(2), §1986 and 18 U.S.C. §1961
(R.I.C.O) inclusive.
It was suggested 1*9' 19 by Magistrate Spaeth
that these claims go directly to the ADR table with
The Los Angeles Film School and what was
understood to be all Defendants, it would be just and
proper for the court to have advised such in its
supporting report and recommendation, instead this
was put off when Magistrate Spaeth was either told
what to write in her order or she was being solicited
what to write in her order at hearing by Defendant’s
counsel, and agreed during the 8 month wait for the
Report and Recommendation to be released.
The following docket references and appendix
items outline with great clarity the appropriateness
of the awards sought, the many violations of the
basic Constitutional provisions governing litigation
practices relating to business in The United States;
and illustrates the need for proper “procedural due
process” and resolution as to the violations to U.S.
Code inflicting injury, and failure to provide
Petitioner protection from theft, abuse and dishonor.
Petitioner emphasizes his request for timely relief
with a Rule 11 Petition for Writ of Certiorari
requesting monetary award for damages and
respectfully asks the court for a swift and critical
justice remand. A proper decision must be fiercely
crafted by the US Supreme Court Justices.

16

Timeline of Briefing and Events
•

10*5*18 * Petitioner filed “the RICO
complaint.” (See 2:l8*cv*08604 * Central
District Court * Dkt. Nos. 1*17)

Motions to Dismiss and Opposition Papers were Pled
through 1-2-19
•

1*9*18 and 1*16*19 -Hearings took place in
Magistrate Judge Autumn D. Spaeth’s
Courtroom at the Ronald Reagan Courthouse,
Santa Ana, Ca.
(See Transcripts * Ninth Circuit Court * Case
No. 19*56293 * Dkt. Nos. 9 and 13)

•

9*30*19 * U.S. Magistrate Judge Autumn D.
Spaeth released her Report and
Recommendation
(See 2:l8*cv*08604 * Central District Court *
Dkt. No. 179)

•

10*9*19 * Petitioner filed Objections (with
suggestions to the revision of The
Magistrate Act)
(See 2H8-CV-08604 * Central District Court *
Dkt. Nos. 181*183)

•

10*17*19 - Judge Cormac J. Carney released
his order affirming Magistrate Spaeth’s
recommendation, that night Petitioner was

17

beaten nearly to death and robbed in a public
restaurant, footage stolen by Oxnard Police
the next morning.
{See 2:l8'cv08604 - Central District Court Dkt. Nos. 185-187)
•

12-10-19 - Petitioner filed its Opening Brief
and accompanying Motion to Transmit
Physical Exhibits Pursuant to 27-14
{See Central District Court - Case No. 2-18-cv08604 - Dkt. No. 210. Exh.3 and Ninth Circuit
- Appeal No. 19-56293 - Dkt. Nos. 6 and 7)

•

7-3-20 - Petitioner filed a Reply Brief with
additional materials relevant and important,
supporting the claims.
{See Appeal No. 19-56293- Ninth Circuit
Court - Dkt. No. 73)

•

7-9-20 - Petitioner filed a Supplemental
Statement in Support of Petitioner *
Appellant’s Reply Brief with new activities of
RICO engaged in by neighbors and
Respondent Oxnard Police.
{See Appeal No. 19-56293- Ninth Circuit
Court * Dkt. No. 77)

•

7-23-20 - Petitioner filed a necessary
complaint with new RICO Defendants -

18

Seabridge Security (Cobalt Security), and
existing Respondent Oxnard Police
Department^
{See Case No. 2:l8-cv-08604 - Central District
Court - Dkt. No. 210)
•

7-27-20 - Judge Carney enters order citing
Petitioner was labeled a "vexatious litigant"
and obstructing the filing of the new
complaint:
CSeeDkt. No. 210)

•

8-10-20 - Petitioner's parents were attacked
on camera causing serious life threatening
injury to Petitioner's, mother, breaking her
leg severely. The attack was by the same
neighbors in question with Seabridge Security
(Cobalt Security), who conspired for Oxnard
Police recently to facilitate their response to
threaten Petitioner as retaliation for the RICO
claims. Oxnard Police then attempting to
coerce Petitioner’s parents into cooperating
with their false statement making at the
hospital.
{See again Dkt. No. 210)

•

9-10-20 - The Ninth Circuit Court of Appeals
enters affirmation of dismissal by Judge
Spaeth and Judge Carney of “the RICO
complaint”:

19

{See Case No. 2:i8-cv-08604 - Central
District Court - Dkt. No. 213)
•

11-17-20 - Petitioner filed its Motion to Recuse
U.S. Magistrate Judge Spaeth and Judge
Carney Pursuant to 28 U.S.C. 455(a) and
Motion for Appropriate Relief Pursuant to
F.R.C.P. 60(d): a much larger cybertheft and
two vicious attacks took place and were
ignored {See Central District Court - 2:i8-cv08604 - Dkt. No. 217, p. 16 and Exh, 7)
CSIeeCase No. 2:i8*cv08604 - Central
District Court - Dkt. No. 217)

•

11-19-20 - The motion was referred to Judge
Josephine L. Stanton: {See Case No. 2:l8-cv08604 - Central District Court - Dkt. No. 218)

•

11-24-20 - Judge Josephine L. Stanton struck
Petitioner's Motion to Disqualify Judicial
Officers:
{See Case No. 2:l8-cv-08604 - Central
District Court - Dkt. No. 219)

• Anticipating conspiracy again, Petitioner
noticed its appeal to the Ninth Circuit
11-30-20 - {See 2:i8*cv08604 - Central District
Court - Dkt. No. 220 and 221), and then
quickly Motioned for Relief from Judge
Stanton's order.

20

•

12-8-20 Petitioner filed its Motion to
Disqualify Judge Josephine L. Stanton
Pursuant 28 U.S.C. 455(a) and Motion for
Appropriate Relief Pursuant to F.R.C.P. 60(d)
From Her Order Striking Petitioner's Motion
to Recuse Magistrate Judge Autumn D.
Spaeth and Judge Cormac J. Carney Pursuant
to 28 U.S.C. 455(a) and Motion for Appropriate
Relief Pursuant to F.R.C.P. 60 (d):
{See Case No. 2:i8-cv-08604 - Central District
Court - Dkt. No. 223)

•

1*1-20 - Nancy Pelosi's house was attacked
referencing the Table of Contents to the just
filed Motion to Disqualify * Dkt. No. 223):
https://sanfrancisco.cbslocal.com/2021/01/03/re
port-pelosi-san-francisco-home-vandalizedgraffiti-apparent-pigs-head/

•

1-6*20 Petitioner filed its Opening Brief to the
first filed Motion to Recuse and for
Appropriate Relief
{See Appeal No. 20-56276 - Ninth Circuit
Court District Court - Dkt. Nos. 6 and 7)

•

1-11-20 After first being referred to Judge
Stanton in error, the Motion was referred to
Judge Carney to provide oversight of her
review of his previous order denying relief
from the vexatious order, which he did
ordering in favor of Defendants contrary to
Supreme Court Justice Scalia.

21

(See Case No. 2:l8-cv-08604 • Central District
Court ■ Dkt. No. 228)
Due to COVID and the time issues involved
already preventing resolution of any part of the
claims, and lack of proper personnel that can be
trusted at this point in any of the lower courts to not
obstruct or delay in collaboration with Defendants,
albeit without precedent to be decided for a
Petitioner to receive a summary judgement with
actual dollar amount ordered by the Supreme Court,
it seems that requiring decision for judgement to be
entered after contemplation by any of the lower
courts would be too far off for there not to be
unnecessary risk to Petitioner’s life. The individual
claims are all supported with adequate evidence
leaving not much else to review in trial. (“The district
court’s failure [to address a potentially dispositive
matter when ruling on summary judgment] does not
require a remand, however, because the record is
sufficient to permit us to resolve the issue as a
matter of law.”). E.g., Ellison v. Ford Motor Co., 847
F.2d 297, 300-01 (6th Cir. 1988)
Petitioner asks for a precedent decision on
damages that should go uncontested, or a remand to
the District Court with firm instructions for “the
RICO complaint” to which this Motion to Recuse
Magistrate Judge Spaeth and Judge Carney
Pursuant to 28 U.S.C. 455(a) and for Appropriate
Relief Pursuant to F.R.C.P. 60(d) was necessary, to
be activated and operational again for ADR
scheduling with instructions for summary judgment
as to appropriate Defendants decided by

22

The Supreme Court, and if The Supreme Court
deems necessary, a trial on remaining Respondents.
The Constitution gives Congress the powers to
regulate the Supreme Court’s appellate jurisdiction,
to create the lower federal courts, and to prescribe
the procedures used in the federal courts. U.S.
CONST, art. I, § 8, els. 9, 18.' id. art. Ill, § 1, cl. l; id.
art. Ill, § 2, cl. 2; Sibbach v. Wilson & Co., 312 U.S. 1,
9-10 (1941); Wayman v. Southard, 23 U.S. (10
Wheat.) 1, 21-22, 43 (1825).
When it comes to the specific topic of how
appellate courts dispose of cases, Congress has
legislated on the subject through 28 U.S.C. § 2106.
That statute provides^
The Supreme Court or any other court of
appellate jurisdiction may affirm,
modify, vacate, set aside or reverse any
judgment, decree, or order of a court lawfully
brought before it for review, and may remand
the cause and direct the entry of such
appropriate judgment, decree, or order, or
require such further proceedings to be had as
may be just under the circumstances. 28
U.S.C. § 2106 (2018).
When review is properly done of the materials
referenced to all claims to “the RICO complaint” and
its litigation upwards racking clearer focus to errors
presenting a scheme of participation illustrated with
its Opening Brief (19*56293, Dkt. l) and “Motions to
Recuse and for Relief’ — (2:l8*cv*08604 * Dkt. Nos.
215, 217, 223) * the decision to not ever enter an

23

award for summary judgement at any level or in
either California or Nevada District Courts.
conspiracy rings true.
A conflict in the 12th District where lies the Ninth
Circuit - due to their association with political figure
Defendant locally or the executive order from high
above to dismiss all four accumulated copyright
appeals 2-27-17 (at different stages of litigation
during the time of briefing for Basile v. Southwest
Airlines, but all a matter oflaw copyright and torts)
continues to infect the decision making process in
violation of Petitioner’s rights to “due process” under
the Fifth and Fourteenth Amendment of The
Constitution of The United States of America, in
pursuit of his award for other damages and well as
award from profits generated by his stolen property most reasonable option being The Supreme Court’s
final say as to the portion of the box office profits
Petitioner is entitled to, with additional punitive
compensation for Petitioner and his family being
attacked.
The functions of the Ninth Circuit to reverse and
provide summary as should have the District Court
without the need for appeal, is understood to not be
procedurally possible in the Supreme Court only
reversing and remanding without dollar amount
order when for a Petitioner’s favor, however, since
three of four of the copyright appeals included
copyright infringement and but not yet
18 U.S.C. § 2319 criminal copyright infringement as
RICO, were nudged upstairs to the Supreme Court
when the activities were engaged in outlining RICO
violations visibly compiling a 42 U.S.C. Civil Rights
claim, then when later considered as “one complete

24

series of actions” establishing everything to have
been a “function as a conglomerate conspiracy”
between Respondents to escape liability using
violence, the Supreme Court can consider this
Petition for Writ of Certiorari a second time review
after their first unspoken call to action to create “the
RICO complaint", and remand with instructions that
should be specific to the prayer for damages
according toSection 25 of the Judicial Act 1789Judiciary Act of 1789, ch. 20, § 24, 1 Stat. 73, 85*
[W]hen a judgment or decree shall be reversed
in a circuit court, such court shall proceed to
render such judgment or pass such decree as
the district court should have rendered or
passed; and the Supreme Court shall do the
same on reversals therein, except where the
reversal is in favour of the Petitioner , or
petitioner in the original suit, and the
damages to be assessed, or matter to be
decreed, are uncertain, in which case they
shall remand the cause for a final decision.
And the Supreme Court shall not issue
execution in causes that are removed before
them by writs of error,but shall send a special
mandate to the circuit court to award
execution thereupon.
Section 25, which governed Supreme Court review of
state decisions, provided:
[T]he proceeding upon the reversal shall also
be the same, except that the Supreme Court,

25

instead of remanding the cause for a final
decision as before provided, may at their
discretion, if the cause shall have been once
remanded before, proceed to a final decision of
the same, and award execution. Id. § 25, 1
Stat. at 86 (emphasis added).
The Ninth Circuit and other state courts of appeal
are to remand cases involving such matters as to
whether a complaint states a legally sufficient claim
(seeAdkisson v. Jacobs Eng’g Grp., Inc., 790 F.3d
641, 649 (6th Cir. 2015); or whether a Petitioner’s
evidence is sufficient to withstand summary
judgment, not just without any application in opinion
or order affirm a decision. E.g., Jerri v. Harran, 625
F. App’x 574, 578—79 (3d Cir. 2015); Giraldes v.
Roche, 357 F. App’x 885, 886 (9th Cir. 2009) (mem.)
Underling, italicizing and bolding cannot
articulate for a full understanding. The chaos and
abuse that’s ensued requiring award for damages is
measurable legalistically and Petitioner requests
very respectfully that the order should be reflective
of this.
What was experienced after affirmation of
dismissal to the four copyright claims in the Ninth
Circuit * after pattern dismissal in District Court was disbelief watching the sanctification of their
participation by also affirming dismissal of the
Complaint in Nevada District Court that was
thoroughly litigated with admissions in depositions
by the four flight attendants who engaged in the
obstruction and attempt to frame Petitioner , then
ALSO affirmation of the obstructive dismissal of “the
RICO complaint" clarifying the Ninth Circuit’s

26

position not only to have been operating on an
executive order by affirming the four copyright
claims’ dismissals, but now again providing material
support in violation of 18 U.S.C. § 2339A possibly
also operating under executive order again.
The United States constitution has thus far
provided Americans an iron based foundation upon
which all U.S. Code, legal doctrine, and U.S. case law
have been built since, supporting freedom and one’s
right to safely generate wealth and prosperity. When
these principles fail us by referees’ disregard for
honorable and just resolution of business issues by
application of the governing legal science due to their
own bias or error for reason of furthering agenda,
removing the U.S. Court system and its functions
that it must exist for, we are not secure in the
preserving of one’s property and ability to pursue
remedy, when Respondents are all in violation of
18 U.S.C. § 1961 and the claims have grown to the
most substantial accumulation of injustices against a
citizen in history; creating an even more disturbing
presentation of problems are the violations to
Petitioner’s civil rights under 42 U.S.C. § 1983 and
§ 1985(2), preventing resolution of any claim and
separating Petitioner from his own property for now
8 years.
The District Court has not provided relief only
obstruction and The Ninth Circuit Court of
Appeals refuses to provide any oversight at all
with now two standout cases thrown aside by
manipulated organization of statements of false
facts and failure to apply laws, leading to now a
pattern of “dismissal and abusive affirmation” of

w
27

Petitioner’s all-encompassing “the RICO complaint”
and the complaint against Southwest Airlines in
Nevada - which involved threats in front of Judge
Boulware and kidnaping twice during litigation that
when completed was conclusive enough for summary
judgement - in violation of virtually all governing
constitutional provisions, case law and federal
statutes.
In the same spirit as threat before kidnapping, by
Southwest counsel, “bound, gagged, and thrown in
the trunk of a car.”, Nancy Pelosi’s daughter made a
disturbing reference to the threat by Judge Wayne,
“ Mr. Basile, off with your head! ”, using similar
dialogue on the news on 1-2-19 , only a few days
before hearing with Magistrate Judge Spaeth 1*9-19,
and therefore related to both events:
(See Case No. 2:i8-cv-08604 - Central District Court
- Dkt. No.l, T|[107-116)
httpsV/www.google.com/amp/s/www.newsweek.com/
nancy-pelosi-daughter-cut-head-bleeding
1277380%3famp=l
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.

DATED: 7-26-21
CONSTANTINO BASILE
Petitioner

